<html>
<title> - NOMINATION OF MAJOR GENERAL (RET.) ROBERT A. HARDING, ADMINISTRATOR, TRANSPORTATION SECURITY ADMINISTRATION, AND ASSISTANT SECRETARY-DESIGNATE, U.S. DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 111-714]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-714
 
                   NOMINATION OF MAJOR GENERAL (RET.)
                   ROBERT A. HARDING, ADMINISTRATOR,
                TRANSPORTATION SECURITY ADMINISTRATION,
                   AND ASSISTANT SECRETARY-DESIGNATE,
                  U.S. DEPARTMENT OF HOMELAND SECURITY

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 23, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


        SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION





                  U.S. GOVERNMENT PRINTING OFFICE
62-407                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 23, 2010...................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     3
    Prepared statement...........................................     7
Statement of Senator LeMieux.....................................     9
Statement of Senator Warner......................................    11
Statement of Senator Klobuchar...................................    14

                               Witnesses

Harding, Major General (Ret.) Robert A., Administrator, 
  Transportation Security Administration, and Assistant 
  Secretary-Designate, U.S. Department of Homeland Security......     3
    Prepared statement...........................................     4

                                Appendix

Thune, Hon. John, U.S. Senator from South Dakota, prepared 
  statement......................................................    19


                   NOMINATION OF MAJOR GENERAL (RET.)

                   ROBERT A. HARDING, ADMINISTRATOR,

                        TRANSPORTATION SECURITY

                     ADMINISTRATION, AND ASSISTANT


       SECRETARY-DESIGNATE, U.S. DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        TUESDAY, MARCH 23, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. The hearing will come to order, as soon as I 
have poured my water. Even generals have to wait on water 
sometimes.
    We are here today to consider the nomination of Major 
General Robert Harding to be the Administrator, the long-
awaited, the extremely long-awaited, the desperately needed 
Transportation Security Administrator of TSA.
    First, I want to welcome and congratulate Mr. Harding and 
also your wife, who is with you. You do recognize your wife, 
right?
    General Harding. I do.
    The Chairman. Well, I would like to have her stand so that 
we can--Kay Bailey Hutchison and I can see her. That is right. 
See, that is good. Committee practice.
    I want to congratulate you for your service to our Nation. 
I said that to you in private. You have got an incredibly long 
record of service in the intelligence field and national 
security in general.
    We simply cannot ignore the fact that our Transportation 
Security Administration has had no administrator, no leader of 
the team. All kinds of things have happened, but for various 
reasons, we just haven't had a leader of the team. I think we 
have got one now.
    The attempted Christmas Day attack illustrated the absolute 
need for a TSA director. It is an extraordinarily important 
post, and you preside over 500, 700 million passengers flying 
in this country and well over a billion in another 5 or 6 or 7 
years.
    Our enemies, as you know so well, are persistent. They are 
very dangerous, and we all know they plan new attacks, always 
planning new attacks. We need a highly qualified, strong 
administrator to lead the TSA and its workforce in protecting 
our country against future attacks. And I have no doubt that 
Major General Robert Harding is ready and qualified to lead the 
agency effectively.
    Before retiring, he served 33 years and developed extensive 
intelligence experience in the United States Army. There are 
reams of material on that. During his time with the Army, Major 
General Harding served as Director of Operations at the Defense 
Intelligence Agency--that is, just below the guy who directs 
the whole thing, Director of Operations; Director of the Agency 
is not much different--Director for Intelligence for the Army's 
U.S. Southern Command, and in several other important 
positions.
    And with such a broad background in intelligence and 
security and such strong management and leadership experience, 
I believe Major General Harding has the skills to make a really 
positive and needed impact at that agency.
    I worry about that agency. I worry about morale. I worry 
about equipment. I worry about a lot of things, which we can 
talk about.
    Mr. Harding, the Commerce Committee has a significant role 
in Homeland Security oversight. We share that with another 
committee. Should you be confirmed, I intend to work with you 
to make sure that TSA succeeds. I am particularly interested in 
having TSA complete its ongoing cargo and surface 
transportation initiatives, improving the security of general 
aviation, which is a subject rarely discussed but much in need 
of discussion, and helping to develop and implement new 
technologies that will advance commercial aviation security.
    I also expect you to work with Congress to make sure TSA 
has the funds it needs to secure our transportation system. In 
other words, we have oversight. We share oversight with another 
committee, but we also are here to help you, and we want you to 
have the budget you need. We are all aware of the President's 
constraints. But we are also aware of our national needs.
    I have said this before, and I will say it again--this is 
one of the toughest positions in Washington because the safety 
and security of our citizens is our most solemn responsibility. 
And you have that so directly.
    The attempted Christmas Day attack made it absolutely clear 
that we continue to struggle to share intelligence effectively 
across agencies. It is quite remarkable, if you do reading on 
your experiences and on the intelligence community, which I 
know from service on the Committee, 9/11 got us a little bit to 
share information, but not really very much. And it is not 
where it should be. The FBI isn't where it should be. And 
nobody is where they should be.
    So securing good intelligence, protecting our citizens with 
knowing what is going to happen before it happens is often the 
best way to protect them. If we are serious about addressing 
the gaps in both our homeland security and intelligence 
communities, there is substantial work still to be done.
    So, in closing, to move forward, we need effective leaders 
at key agencies like the TSA. We need somebody who can hit the 
ground running and provide clear direction. General Harding's 
distinguished career in both government and the private sector, 
where he gained the strong management and leadership skills 
that the position demands, make him a good fit for the mission. 
Of that, I am clear.
    As you know, the nature of the job is that you listen to 
many complaints and you get no praise. But together, I believe 
we can work to make TSA successful. I look forward to your 
testimony, Major General Harding.
    And I call now upon my distinguished colleague, Ranking 
Member, Senator Kay Bailey Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    I will not take long. I will say that I think your service 
to your country, 33 years, is very impressive and being Deputy 
Chief of Staff of the Army, Director of Operations for the 
Defense Intelligence Agency are great qualifications for this 
job.
    And I agree with the Chairman. It is one of the toughest 
jobs in all of our Government because so many people depend on 
the safety of our air transportation system, as well as our 
surface transportation system.
    And I think the Chairman mentioned, but I am in complete 
agreement that we have, I think, put so much emphasis on 
aviation safety, as we should, that perhaps we haven't looked 
enough at surface transportation safety for buses and trains. 
And I think that is something that you are going to have to 
take under your purview.
    One of the issues that I want to make sure we are also 
addressing is Federal law, which as you know, does prohibit 
screeners in the TSA from striking. However, there are efforts 
ongoing for collective bargaining by TSA screeners, and 
previous TSA Administrators have said that they would be very, 
very concerned about collective bargaining not allowing the 
flexibility that they need to be able to deploy forces to a 
certain area of an airport, or to a certain airport, to change 
the working hours if a crisis, or an emergency, is at hand.
    I hope that you will also be looking at the flexibility of 
the workforce and the need for that flexibility as one of your 
priorities. So, with that, I would like to just go on to 
questions, if the Chairman is ready? Because I have another 
hearing at 10 a.m. that I also am Ranking Member on.
    The Chairman. You go ahead.
    Senator Hutchison. Really? Oh, good. Thank you.
    OK. Let me ask you, first, on the issue of collective 
bargaining for screeners, how would you handle that in your 
capacity as the leader of this agency?

      STATEMENT OF MAJOR GENERAL (RET.) ROBERT A. HARDING,

             ADMINISTRATOR, TRANSPORTATION SECURITY

       ADMINISTRATION, AND ASSISTANT SECRETARY-DESIGNATE,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    General Harding. Senator Hutchison, thanks for asking the 
question. I am familiar with the issue and, since being asked 
to consider the position, have studied it.
    I recognize that all parties agree on the same things, 
Senator, that you just indicated. All parties agree on the need 
for flexibility and agility. All parties agree on the necessity 
for the Administrator to have the ability to move screeners at 
a moment's notice in response or prior to a terrorist incident. 
Everyone seems to agree that we need to strengthen security.
    If confirmed, I would love to have the opportunity to 
broaden the experience that I have already had in looking into 
this by talking to a very broad cross-section of the 
transportation security officers, of other members of TSA, as 
well as members in DHS. And as I have learned for 33 years in 
the military and especially in my last few years as a flag 
officer, provide the best advice I can to the decisionmaker, in 
this case, the Secretary.
    And I think the Secretary and I, in arriving at a decision, 
will be very concerned about the implementation of such a 
change, if it was to be accepted. Again, we both agree, 
Senator, that we would never bargain away security. But we 
probably also both agree that I would really need to do, I 
think, an in-depth and thorough review before I inform the 
Secretary of my recommendation.
    [The prepared statement of General Harding follows:]

     Prepared Statement of Major General (Ret.) Robert A. Harding, 
 Administrator, Transportation Security Administration, and Assistant 
       Secretary-Designate, U.S. Department of Homeland Security
    Good morning Chairman Rockefeller, Senator Hutchison, and 
distinguished members of the Committee. It is a privilege to appear 
before you today as the President's nominee for Assistant Secretary of 
the Transportation Security Administration (TSA). I am deeply honored 
by the President's call to service and by the support I have received 
from Secretary Napolitano.
    With your kind indulgence, I would like to recognize my wife and my 
children. It is their love and support that has sustained me through 
the years. I also want to express my deep appreciation to those I met 
in the course of my 33-year career in the U.S. Army who shaped my 
ideals, character and vision. Who I am today is very much a product of 
my time in the U.S. Army.
    Last, but not least, I want the men and women of TSA to know that I 
am eager to join their ranks and to lead them in safeguarding our 
Nation's transportation system.
    The December 25, 2009, attack on Northwest Flight 253 reminded us 
of the ever-evolving threat our Nation confronts as terrorists seek new 
and inventive means to defeat the security measures the global 
community have put into place since September 11, 2001.
    Since its creation following the tragic 9/11 terrorist attack, TSA 
has played a vital role in securing aviation and other modes of 
transportation. If confirmed, I look forward to working in close 
collaboration with our partners in the intelligence and international 
community; Federal state, and local governments; private industry; and, 
most importantly, the traveling public to continue to meet the 
challenge of keeping our Nation's complex transportation system secure.
    I believe I am uniquely qualified to lead TSA in advancing its 
mission. I have spent over 30 years in the Intelligence Community. I 
served as the U.S. Army's Deputy G2 (Intelligence) at the time of my 
military retirement in 2001, and as the Director for Operations at the 
Defense Intelligence Agency (DIA). At DIA, as the Department of 
Defense's (DOD) senior Human Intelligence (HUMINT) Officer, I managed 
intelligence collection program requirements and supervised security of 
DOD's Defense attaches in over 200 embassies/offices around the world. 
I also commanded a HUMINT and Counterintelligence Battalion in Korea, 
and the Army's premier Counterintelligence Group, the 902nd, at Fort 
Meade.
    Since my retirement from the U.S. Army, I have served as CEO of 
Harding Security Associates (HSA), a company I founded in 2003 and sold 
in July 2009. I built the company into a workforce of highly trained 
professionals providing strategic security solutions to U.S. Government 
agencies in the Intelligence and Defense communities. I have no current 
financial or ownership interests in the company and I have entered into 
an ethics agreement with the Department's designated agency ethics 
official, which has been provided to this Committee, to ensure no 
conflicts of interest arise.
    I know the importance and value of coordinated efforts between 
Federal agencies. As the Director for Intelligence for the Army's U.S. 
Southern Command, I coordinated efforts between the DIA, Drug 
Enforcement Administration (DEA), FBI, CIA and Customs on sensitive 
interagency counter-drug operations.
    My intimate familiarity with counterterrorism matters, military 
assignments implementing intelligence programs throughout the world, 
and reliance upon ever-changing technological advances have equipped me 
to meet the current and future challenges of TSA.
    If confirmed, I will ensure that TSA continues to work closely with 
and receives necessary intelligence from the Intelligence Community, 
and that this information is applied across transportation modes. While 
TSA is primarily a consumer of intelligence, I will work closely with 
our partners in the Intelligence Community to improve the kinds of 
information needed from the watchlist system; and if confirmed, I will 
continue the work begun from the President's review to work with our 
interagency partners to review and, where necessary, modify the 
criteria and process used to build the Terrorist Screening Data base 
(TSDB) and nominate names for the No-Fly and Selectee Lists.
    Given the global dimensions of aviation security, I will also 
support Secretary Napolitano's historic effort to bolster international 
aviation security, by working with our partners around the world to 
enhance information collection and sharing, increase cooperation on 
technological development, and modernize global aviation security 
standards.
    Additionally, I will encourage the use of enhanced screening 
technologies, both at domestic airports and by our international 
partners, while remaining respectful of privacy, and civil rights and 
liberties. Our objective in using these technologies is clear: to 
strengthen our abilities to find dangerous materials and to stop 
dangerous people.
    From my military service, I know all too well how important a well 
trained workforce is. You have my commitment to enhance training 
opportunities and invest in developing TSA's employees.
    If confirmed, I look forward to a close working relationship with 
Congress and this Committee. I welcome your oversight, your 
suggestions, and appreciate your dedication to ensuring our Nation's 
security. In closing, I again thank President Obama and Secretary 
Napolitano for their confidence and faith in my ability to lead TSA. 
Mr. Chairman, Senator Hutchison, I thank you for the opportunity to 
appear before you today and I look forward to answering your questions 
and, if confirmed, undertaking the challenges that lie ahead.

    Senator Hutchison. Well, I understand your inability to 
make a clear answer. But I am going to be very interested in 
following this because I just think that there are some jobs 
that aren't 9 to 5, and when people apply for them, they should 
know it is not 9 to 5.
    Security and law enforcement, military as well, are those 
kinds of jobs. And so, I hope that you will be very forthcoming 
on this because it will be of great concern to many of us.
    Speaking of that, I want to also ask the question that I 
ask of every one of our nominees, who is going to be in a 
position to run an agency or have a major commission 
appointment, and that is that we rely on an open dialogue with 
the people whom we confirm. It is part of our oversight 
responsibility. I want to ask you if all members of our 
committee and our staffs can count on the cooperative 
relationship with your agency and you, as we go forward?
    General Harding. Senator, you can count on that.
    Senator Hutchison. Thank you.
    Let me ask you one other question, and that is about your 
previous company that you founded and have since sold, Harding 
Security Associates. I think that some of our staffs have 
talked to you about what your plans are for recusal of yourself 
from contracts that might be coming up just within a few months 
of your confirmation. I think maybe July of this year your 
recusal commitment, previous commitment, would run out.
    How do you intend to handle contracts that might come up in 
key areas of the Transportation Security Administration with 
your former clients from your private sector position, 
following your retirement?
    General Harding. Senator, I would recuse myself, as you 
indicated. Four things come to mind. One, I worked for quite a 
few weeks with the Office of Government Ethics. I decided in 
working with the Office of Government Ethics to draw a very 
bright line and go up and above what would normally be expected 
of a nominee.
    So I met the hurdles of the normal expectation, which is 
the ethics pledge, as well as President Obama--I am sorry, the 
ethics regulations, as well as President Obama's pledge. And 
that would mean that I would recuse myself from any dealings 
with my former company, which I walked away from and have no 
connection with.
    I would, in addition, recuse myself in this very bright 
line and up and above what is normally expected in the 
regulation and the pledge. I would recuse myself from dealing 
with any companies that actually worked with my company. And 
that would be, according to the Office of Government Ethics 
recommendation, for a year from the sale of the company.
    Senator Hutchison. All right. I may want to pursue that 
further when I look at what some of the relationships are with 
former clients, but I need to get a clearer list. So could I 
submit a question to you in writing later?
    General Harding. Absolutely, Senator.
    Senator Hutchison. And would you be willing to answer it?
    General Harding. We have all of that listed, and I would be 
glad to provide that to you.
    Senator Hutchison. OK. My last question then, and I 
appreciate the Chairman's indulgence, is on surface 
transportation. Sixty-eight percent of the President's budget 
request for TSA for 2011 is for aviation security. Two percent 
is for surface transportation security, and yet we have seen in 
other places severe attacks in trains, as well as buses and 
other types of public transportation, surface transportation.
    What would be your commitment in looking at what can be 
done in the surface transportation areas to increase the 
priorities there?
    General Harding. Senator, I think that is a very important 
question. And I think the answer is informed by intelligence. 
And as we discussed, intelligence is the common denominator 
across all modes of transportation. We have actually seen, as 
you indicated, where a threat, if they could not attack by air, 
would look for other modes of transportation.
    I would welcome the opportunity, if confirmed, to work with 
stakeholders in looking at a systematic way of applying threat 
and risk management and risk mitigation across all modes of 
transportation. I recognize that would be my responsibility, if 
confirmed.
    I applaud the fact that TSA has already recognized that the 
intermodal nature of the transportation system that we are 
sworn to safeguard allows examples like the VIPR teams, the 
Visible Intermodal Protection and Reaction teams that you see 
providing visible examples of how interagencies come together 
in things like other than aviation. I think initiatives like 
that are very important both because of their visibility as 
well as their inherent bringing together of interagencies, and 
I would like, if confirmed, to continue that process.
    And finally, combining the threat that we would work with 
DHS's INA on, the Intelligence and Analysis shop. Caryn Wagner, 
who I have had the fortune of working with for 15 years. We 
would apply both the resources and the budget appropriately 
across all of TSA based on what we see as the threat.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman, very much.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Mr. Chairman, for holding today's hearing. I share your 
sense of urgency about the need to confirm a new leader for the 
Transportation Security Administration (TSA), and appreciate your 
scheduling this hearing before the Easter recess. TSA, which is so 
critical to fulfilling the mission of the Department of Homeland 
Security (DHS), and protecting the traveling public, has been without 
an Administrator for more than a year.
    Major General Harding, we welcome you and thank you for your 
willingness to serve as TSA Administrator and Assistant Secretary at 
DHS. I commend you for your life-long commitment to your country. Your 
33 years in the U.S. Army, including serving as the Army's Deputy Chief 
of Staff with responsibility for the Army's intelligence functions and 
as the Director for Operations for the Defense Intelligence Agency, are 
quite impressive.
    If confirmed, the job before you will be extremely difficult and 
the decisions you make will have tremendous impact on the safety and 
economic viability of our national transportation system across all 
modes. The challenges and threat assessments that our intelligence and 
security community face everyday are too numerous to mention, but I do 
have a number of topics I would like to briefly highlight.
    First, is the issue of allowing transportation security officers 
(TSOs), or screeners, to collectively bargain. Federal law does 
prohibit screeners from striking; however, former TSA Administrators 
have argued that allowing screeners to collectively bargain could have 
dire consequences on TSA's fundamental security mission, by degrading 
TSA's need for a flexible workforce which can react quickly to emerging 
threats. How you specifically intend to address the collective 
bargaining issue will be of great interest to this committee.
    Second, you are going to have to work very hard to establish a more 
cooperative and trusting relationship with industry across all modes 
and sizes. I repeatedly hear from constituents and stakeholder groups 
that TSA quickly turns a deaf ear to cooperation and partnerships with 
industry, and too often uses blunt force in policy areas that need a 
more highly coordinated and agreed upon approach.
    Third, the day-to-day management challenges of running and leading 
an agency of over 50,000 people are immense. I will be interested to 
hear your thoughts on how to lead and manage the agency most 
effectively and efficiently.
    Finally, I will have some questions about your work with the 
defense and intelligence contracting firm you established after 
retiring from the military. I have no reason to question your 
integrity, or the truthfulness of the information you have submitted to 
the Committee, but the Committee has an obligation to ensure that a 
nominee's past positions, and performance in those positions, will not 
create conflicts of interest or otherwise compromise the Federal 
Government and the security of the Nation.
    Congress and the traveling public put an enormous amount of trust 
in the TSA every day. The inherent need and economic implications of 
maintaining a safe and secure transportation system are an integral 
part of our national security.
    Mr. Chairman, thank you. I look forward to your testimony, Major 
General Harding.

    The Chairman. Thank you, Senator Hutchison.
    It is interesting the way we react in America. We react to 
events. We don't see them coming as well as we should. And you 
sort of intersect those, both the responsibility, but also the 
intelligence aspect, looking out to find where things might be 
coming from.
    And when you look back after the shoe bomber, we all 
started taking our shoes off, and that was fine. Loafers, I 
assume, went up in the stock market. And then after the 2006 
commercial departings from London, all of a sudden we were down 
to 3 ounces, and anything over 3 ounces was not acceptable. And 
that sort of sums up in my thinking a question that perplexes 
me.
    You have a limited amount of money. That is going to remain 
so. On the other hand, I really do believe in intelligence. I 
really do believe, putting it bluntly, that Leon Panetta has 
made one heck of a difference in what is going on in 
Afghanistan and parts of Pakistan. He does that through 
intelligence. He does that through other methods. But that is 
proactive. That is looking before something happens, taking 
care of a problem before something happens.
    So help me understand in your mind the difference between 
vetting the passenger getting on the airplane and patting the 
person down, putting them through screening, wide body imaging 
when that comes, as opposed to--or not as opposed to, but in 
conjunction with spending money and time on the intelligence 
that leads you to warnings.
    Now that is a very hard question because there are so many 
people and so many places. But you come from that background. I 
believe in what I say, but I am not sure what the proper 
balance is. Maybe you could give me your views?
    General Harding. Mr. Chairman, a very good point, what you 
are describing is the difference between 100 percent risk 
avoidance and risk management. What you are also describing is 
the chances that we are willing to take in a very measured way 
using intelligence applied to risk management. And TSA, I 
noticed, is going in that direction, and therefore, the product 
list you referred to changed over time.
    I think, if confirmed, things like the product list need to 
continue to evolve. But more importantly, to your point, 
intelligence--a choice between pure risk avoidance in this 
Nation and being informed by intelligence, I would choose to be 
informed by intelligence. I would choose to make decisions 
based on the intelligence that we gather. I would choose to be 
a proactive member of the intelligence community, working with 
my colleague at the Department of Homeland Security, Caryn 
Wagner, on the intelligence analysis piece.
    I would choose to use that intelligence effectively, again, 
as Senator Hutchison pointed out, in applying resources across 
the entire transportation system. And I would use intelligence 
in a way that would allow our stakeholders and, more 
importantly, the American public to understand what we are 
doing, why we are doing it. To the extent possible, I would 
share intelligence with the stakeholders that include the 
associations, even industry we would look to to help us on the 
technological side, to help us not just meet the threat, but to 
stay ahead of the threat.
    We have to be proactive. This committee especially 
recognizes the evolving nature of the threat. What we have to 
do is stay ahead of that threat.
    And the bottom-line answer, Mr. Chairman, is I think 
through the use of intelligence, correct application of 
intelligence, being a proactive member in the intelligence 
community, using that to inform stakeholders and apply 
resources is what will help us move forward, both 
technologically and keeping up and ahead of the threat and 
moving away from things that appear to be more security theater 
than actual security.
    The Chairman. I think I got that. I am not totally sure 
that I did. Can you give me an example of where--and then this 
will be my last question, we will go on to others--where 
intelligence has been helpful, as you have perhaps heard about 
it with respect to potentially dangerous passengers?
    General Harding. In the run-up to these hearings, I have 
had briefings that I can't go into detail here. But I have had 
briefings where the intelligence that TSA is using has 
indicated how the threat plans to hide and conceal devices as 
an example, and I have seen measures then put into place in 
airports on how we check passengers based on that intelligence.
    The Chairman. OK. I thank you.
    Senator LeMieux?

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Mr. Chairman.
    General Harding, thank you for putting yourself up again 
for public service.
    After 33 years in the military, serving as a general and 
being in charge of the Defense Intelligence Agency, I think 
that you have the experience for this job, and I am glad that 
the President has put forward somebody who has this 
intelligence focus. You and I spoke about this when we met 
previous to today's hearing.
    And in your testimony, you speak of although you will be a 
consumer of intelligence, that you will work closely with your 
partners in the intelligence community to improve the kinds of 
information needed. And you talked about working with Ms. 
Wagner here a moment ago.
    I think one thing that the American people expect is that 
someone who is going to have a position like yours is meeting 
on a regular basis with the other folks who are fighting this 
war on terror, that you are meeting with the Director of 
National Intelligence. You are meeting with the head of the 
CIA, that you are meeting with the Secretary of Defense or 
their surrogate.
    And I hope that you will push for that type of 
collaborative working relationship because I think you having 
that information is essential to doing the job that you need to 
do to protect the American people. Is that something that you 
agree with?
    General Harding. Absolutely, Senator LeMieux.
    Senator LeMieux. I want to talk to you, as we discussed 
also in my office, and that is the idea of not just using 
intelligence, which I appreciate and applaud, but also the idea 
of using technology.
    We send everyone through basically the same security, 
whether they are a 4-year-old, an 85-year-old, or a 20-year-old 
male from a foreign country. And I want you to speak, if you 
will, about the idea of using behavioral screening, about new 
technologies that are available, looking at models--for 
example, what is used in Israel, where they have been 
tremendously successful in stopping terrorists on their planes, 
a country that is even more targeted than we are--and how we 
can use technology with intelligence to put together something 
like a threat index that would allow those--for example, you 
are of no threat. You should be a zero on the threat index. But 
there are others that should be checked more closely.
    How can we differentiate the way that we treat people 
through this TSA process so that we could expedite those people 
who are not a threat, but pay close attention to those who 
might be?
    General Harding. A very good question, Senator. The 
Transportation Security Administration has started the process 
of layering security. Part of the layers of security speak to 
your point on behavior detection, and so the TSA has deployed 
behavior detection officers in airports. I think the number is 
up to close to around 2,000.
    You compare that to your example on Israel, and even though 
there is a difference in scale, some of the things that we see 
from our Israeli partners and friends is the use of engagement. 
We have just started to do that in TSA. It is not at the same 
level being done in Israel, but it started with a one-week 
course and program for TSOs to engage. It is followed by 
supervisors taking another week in those kinds of engagements.
    I agree with you that we should move even closer to an 
Israeli model where there is more engagement with passengers. I 
think that increases the layers and pushes the layers out. I 
think that a very important aspect of providing security is 
engaging the public.
    The last point is one of the things I was informed of in 
the Israeli model is training, training, more training, and 
drills. And if confirmed, I would look forward to working with 
my 48,000 TSOs in ensuring that their training goes even 
further than where we are presently and engage, move toward the 
Israeli model of training and drilling. And I think you would 
see a change very fast.
    Senator LeMieux. A final question that I think is 
appropriate to anyone who is running a governmental agency, and 
that is the idea of using performance metrics and other tools 
not unlike what the military uses to make sure that you are 
getting the most out of the dollars that the American taxpayer 
is spending to fund your agency.
    We don't do a very good job in government in making sure 
that we are doing things efficiently and effectively, and it is 
not a sexy topic for folks who run agencies to really drill 
down and find out whether or not the resources are being used 
in the best possible way. But I would ask you and I hope to get 
your commitment this morning that upon your confirmation, when 
you take up this post, that you will use performance 
evaluations and metrics and do everything you can not only as 
an agency head, but as a manager to make sure that the American 
taxpayer is getting their money's worth.
    General Harding. You have my commitment, Senator.
    Senator LeMieux. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. General, let me just say before I call on 
Senator Warner that we have an awkward situation this morning 
in that we are having the signing of the health bill at the 
White House, and we have to leave at 10:15 a.m. from this room, 
Senator Warner and I do.
    And so, what you will be doing--Amy Klobuchar came in and 
left. But she had to go, but she had a whole series of 
questions which she had, which she is going to send to you. And 
I think what we are going to be doing, I am going to be doing 
that on air cargo screening, general aviation, and some other 
things simply because this is a rather large occasion, which 
people have been working for for a long time.
    But in any event, please understand that, that we are not 
giving you short shrift.
    General Harding. I totally understand, Mr. Chairman.
    The Chairman. We are just actually cutting you a little 
more time for your morning.
    Senator Warner?

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman.
    And actually, General Harding, maybe I think, it is a good 
idea that we are all leaving and the hearing is ending quicker. 
And I will be brief, recognizing our time constraints.
    Let me, first of all, echo what some of my colleagues have 
said, and it is good to see you again, General Harding. And I 
think the President has chosen well. Someone with your unique 
background and qualifications, and I think you are going to be 
a great TSA Administrator and look forward to working with you.
    I want to also add kind of ditto agreement with my 
colleague, Senator LeMieux. As a former business guy and 
Governor, I am pretty focused on metrics as well and actually 
have been asked by the Budget Committee to look on these 
issues. And so, I want to reinforce what my colleague had said, 
and I also will be looking for those kind of metrics, 
performance metrics and milestones within the TSA.
    I want to very quickly raise two questions that are perhaps 
a little bit parochial in nature, but I think they actually 
have applications beyond the specific circumstances of each of 
the issues I am going to raise.
    First is a circumstance, and I think this happened beyond 
just at an airport, beyond just the airport I am going to raise 
where TSA has made commitments, has not come through. The 
circumstance and case in point I want to raise is the Richmond 
airport.
    The Richmond International Airport back in 2004 was doing a 
significant upgrade of its facilities. TSA asked it do current 
state-of-the-art inline explosive detection systems. Richmond 
said they would go ahead and start down this path. TSA 
committed to work with the Richmond airport.
    TSA said, and I have got all the data here, in 2005, well, 
we don't have the money right now. But you guys keep on going, 
and we will be there for you. Richmond airport proceeded to go 
ahead and put in this state-of-the-art detection system at 
TSA's request, working with TSA. They finished this system in 
2007, $3.6 million additional. Still no payment.
    And in terms of--I think it is bad business. I think it is 
also bad faith, and I also think it is an example of not the 
kind of collaborative effort you want to have with your local 
airport authorities. So I raised this with some of your 
predecessors. I would really love to hear an explanation on how 
not only this specific circumstance of Richmond would be dealt 
with, but my understanding, there are other airports around the 
country who have made investments in current technology at the 
request of TSA, but have not been reimbursed for that.
    Are you familiar with this circumstance in Richmond or some 
of these other airports?
    General Harding. Senator, I am familiar with the 
circumstances in Richmond and other airports. I agree with your 
sentiment, and if confirmed, you have my commitment that I 
would look into that.
    Senator Warner. Does that confirmation go to even actually 
Richmond getting paid?
    General Harding. Senator, you have my confirmation that I 
promise to look into it. To be very candid with you, when I 
first discussed this with the members of TSA, I asked to have 
it broken out. Much like you, from a business point of view, I 
am very understanding of how commitments get made by the 
Government.
    And what I wanted to do was ask all of those kinds of 
commitments, whether the airports believed they were made or 
not, if they have something in writing, let me look at those 
and look at the broad range of them, and then let us just do 
what is right. I promised, even before your question, to look 
at that, Senator. And if confirmed, I promise to also get back 
to you.
    Senator Warner. Thank you. I have not seen or heard 
anything from Richmond or anywhere else that there was any 
misunderstanding. I have the documentation and will forward it 
to you, if it would be helpful. There did not seem to be any 
doubt, at least in anybody on the Richmond side, that there was 
any ambiguity about TSA's, one, asking for this current 
technology to be implemented and, two, that TSA would be 
responsible for reimbursement. But thank you for that.
    The second is, and perhaps I get this because as a former 
Governor, local guy here, as I travel, particularly through 
Reagan National and Dulles, I hear repeatedly from TSA 
employees about low morale. And I know, particularly here in 
the national capital area, there is a very high attrition rate, 
particularly perhaps here higher in this region because there 
are other Federal security agencies--FBI, Secret Service, 
others--that could attract TSA personnel as they kind of get 
trained up and then moved on.
    But I would love to hear a comment or two about what you 
can do about the attrition factors and morale issues across 
TSA, and then I will close.
    General Harding. Part of the testimony, Senator, that I 
submitted talked to my priorities. The work force, well-led, 
well-motivated workforce is very important to me, and that will 
go to the issue of morale.
    I can tell you that comparisons that have been made of the 
transportation security officers of 48,000 or so to larger 
organizations that have been around for a long time, compared 
to TSA, which has been around for 9 years, I find interesting. 
I find informative. There are things I think we need to do in 
TSA because it is so young, because it is so large, and because 
it is across 450 airports that are a little different than what 
we see in other agencies.
    If confirmed, Senator, the morale of the TSO workforce is a 
very high priority of mine.
    Senator Warner. Well, thank you, General Harding.
    And thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warner, very much.
    Senator Klobuchar is on her way back, wants to ask a 
question. Let me just, in the interim, ask a quick one.
    General Harding. Sure.
    The Chairman. Over a period of years, I have been very 
frustrated by sort of the special treatment of general 
aviation. They don't carry their weight financially in paying 
for the air traffic control system, and I am talking about the 
one that we have, which isn't any good. But also about the one 
which we want, NextGen, which will be very, very good.
    And so, the legacy airlines are the ones that have to pay 
the freight, but they are not actually even the majority of 
planes in the sky at any given moment. General aviation usually 
is.
    So my question to you is called the large aircraft security 
program. Would you put it as a top priority to consider 
developing a national strategy for how GA functions in an 
appropriate proportionate way within our national air traffic 
situation?
    General Harding. Mr. Chairman, if confirmed, I totally 
agree with you. It would be appropriate to look at general 
aviation from the point of view not just of the threat, but 
from the point of view as a stakeholder and as an industry that 
is just as concerned with security as the rest of us are. I 
would make that a very high priority to bring them into the 
fold and to make them part of how we view, TSA views the total 
transportation network.
    The Chairman. I think that they are kind of the weak link 
in the situation that you face. You go out to Dulles, and you 
just walk onto a charter airplane. You are not checked. Your 
baggage isn't checked. It could be anybody. It is quite 
remarkable. It is true all over the country, as far as I know.
    And I think that not just in the funding, the financing of 
the system, but also just as a weak link factor, it is very 
dangerous. And a lot of people use it. So you will take a look 
at it?
    General Harding. Mr. Chairman, I promise not only working 
with the stakeholders in general aviation, but working with 
your committee also. I think it is very important. You and I 
discussed my experience and your experience using general 
aviation. I think we agree that general aviation needs to be as 
informed of the threat and prepared for it as the rest of the 
transportation modes that we are responsible for, and it is 
something that I would make a very high priority and look into, 
Senator.
    The Chairman. And you understand their frame of mind is 
very different. I mean, they don't consider themselves a part 
of it because they are privately owned. They pick their own 
routes, do their own thing. But they use the air traffic 
control system just the same as anybody else.
    I am not talking about crop dusters or even King Airs. I am 
talking about small jets on up. And I have tried to address 
that in several ways, and it is just amazing what a few phone 
calls will do from some of these people who own those jets. And 
so, they shut down action in Congress, and it is not good. And 
so, I just put that before you and now call upon my esteemed 
colleague Senator Klobuchar, who is going to chair this.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Senator 
Rockefeller. I am catching my breath. I literally ran here, 
General Harding.
    General Harding. Good to see you, Senator.
    Senator Klobuchar. Well, thank you very much, and it was 
good meeting with you in my office the other day.
    And I want to thank Chairman Rockefeller for holding this 
hearing on this important nomination. The position of TSA 
Administrator, as we know, is one of the most important 
positions in the Administration. That was made very clear to us 
on Christmas Day. And as you know, that involved a Northwest 
Airlines flight, which Northwest originally based in Minnesota 
and now Delta. And so, we really care a lot about this issue.
    I first wanted to ask you about your background in 
intelligence and how do you feel that your military and 
private-sector background are going to help to inform you to 
work to protect America's transportation security?
    General Harding. In three areas, Senator. My 33 years in 
the military and rising through to the rank of Major General 
has helped me understand some management practices and 
principles that Senator Warner just implicated as far as morale 
and the workforce, and I think that is very important.
    My years in the intelligence community and most of my 33 
years in the Army I spent within the intelligence community, I 
think, are also very important to TSA in being able to inform 
TSA across the board on the threat, the threat to aviation, the 
threat to all modes of transportation. And I think the 
associations that I have had in the intelligence community to 
include my professional association with Caryn Wagner, who is 
the head of intelligence for DHS, as well as throughout the 
rest of the intelligence community, is very important and I 
think would help TSA.
    And finally, I think my experience in industry, where I 
learned that attention to both the client as well as being very 
attentive to the backroom is very important, and I think all 
three--my experience in the Army, from management and 
leadership; to experience in the intelligence community, which 
I think would inform TSA; to my experience as a small business 
owner in creating 400 jobs--is very important in some skills 
that I would like to bring to the job, if confirmed.
    Senator Klobuchar. Thank you.
    One of the things that I know, and I know that Secretary 
Napolitano has been working on this, but actually working with 
some of the private sector and with the airlines on these 
policies, especially overseas, is very important because, as 
you know, as we transition in our security and the watch lists 
and how things are handled differently, we still have the issue 
that in a lot of the airports around the country, it is the 
airlines that are on the front line in terms of sort of having 
the responsibility for these lists.
    Could you comment about how you see that relationship?
    General Harding. I see that relationship evolving, Senator. 
The watch list itself in the process, as you know, is 
undergoing a review being led by John Brennan at the 
President's direction. I am very familiar with how the 
terrorist screening database informs both our selectee list and 
no-fly list and how we are moving into Secure Flight.
    If confirmed, I would like to sit with the participants in 
the President's review, look at some of the preliminary 
findings and, hopefully, be a stakeholder in the results, and 
participate in how we shape a watch list system that is 
understandable, transparent at least to the extent that it can 
be to the intelligence community, and most importantly, as 
effective as we can make it.
    Senator Klobuchar. Very good. Now I would like to hear your 
thoughts on the full body scanners. I think I explained to you 
in my office, I am someone with a hip replacement that gets 
patted down every single time. And so, this is actually kind of 
appealing to me that I won't have to have this happen in front 
of my constituents every single time I go through the lines.
    But obviously, the real reason to do it is not for the 
convenience of travelers, but for safety. There is still 
uncertainty somewhat about this new technology, but also there 
is great potential with it. And so, could you talk about your 
views about these full body scanners and how you think they 
should be rolled out?
    General Harding. You hit the nail on the head. It is the 
best technology that we have right now. I did get a chance to 
visit the entire process at Reagan airport about a week ago. I 
think one of my major concerns was from the privacy point of 
view. I entered a booth at Reagan airport that is separated 
from where the machine was. The machine is one of those 
millimeter wave type of machines.
    As I entered the booth, my phone, my iPhone was taken away 
from me. I tested that to see whether or not somebody was 
conscious enough to say this is something you can't bring into 
the booth, and it was taken away. And as I entered the booth, I 
got a chance to talk to the TSO who was sitting there with the 
screen, and I asked exactly what he was doing.
    And apparently, a woman was entering the millimeter wave 
machine. She had an object on her left leg, middle. The TSO hit 
his whisper device that communicated to the TSO onsite and 
pointed out that location. The woman then went back through, 
and it was something in her pocket that subsequently was 
removed.
    I then looked at the computer back in the booth and asked 
this screener how can he save that image, which he could not 
do. I am not a cyber expert, but I could tell from the way that 
computer was configured, it had no storage. I then tried to 
exit the room before the woman had left her second screening, 
and I couldn't. I wasn't allowed to. And therefore, when she 
was clear, I was able to leave the room after seeing that 
image.
    I was convinced that day that privacy was very important as 
these whole body imaging machines were put into airports. I am 
still working to come to grips with the footprint in every 
airport, with the implementation across all 450 airports and 
other things attendant to the technology improvement of those 
machines.
    I think in the future you will see those machines improved, 
but I also believe that somehow--and there is a life cycle of 
about 8 years, I think, on those machines. So sometime I would 
believe in the next 2 or 3 years is a next-generation type of 
technology that we need to be looking at that can get at better 
and more capable views of the threat.
    Senator Klobuchar. Because I think we saw like with those 
puff portals, now there are, I think, 22 operating, that those 
didn't exactly work the way people thought they would. So I 
would imagine that there would be advances in technology as we 
go forward.
    The second thing which we touched on was the Secure Flight 
program and the changeover to that with the watch list. And in 
light of the Christmas bombing attempt and other issues that 
have come out about the watch list, kind of the counter is that 
you have people on these lists that shouldn't be on these 
lists.
    I think I mentioned to you the baby going to Disneyland 
from Minnesota who had a common last name, who the family 
weren't able to board the plane because his name appeared on a 
watch list. This was years ago, and he still has--I think it 
may have been fixed in the last few years, but he encountered 
problems for years afterward.
    So you have that going on, innocent people on those lists, 
while at the same time, you have people like the Christmas Day 
bomber whose name didn't appear on the list. So what do you 
think needs to be done to fix it?
    General Harding. I think we need to continue moving in the 
direction of Secure Flight. I think moving the threat list into 
the hands of TSA to do the screening is very important. I think 
the redress program is something that the American traveling 
public has been asking for for a long time. And from the 
briefings that I have received, Senator, that seems to be 
proceeding apace.
    The bottom line is I think we need to continue to move in 
that direction, and if confirmed, I think I would accelerate 
the process, especially of Secure Flight. And I would love to 
be more informed and ask questions about the effectiveness of 
the redress program.
    Senator Klobuchar. Do you believe that the TSA is going to 
be able to meet the current goal of having Secure Flight fully 
implemented for all domestic flights by this time, early 2010, 
and for all international flights by the end of this year?
    General Harding. I would like to get back to you on all of 
the international flights, Senator. I believe that we will meet 
the--I believe TSA will meet the domestic goal. But I would 
like to take for the record and get back to you on the 
international.
    Senator Klobuchar. I also know Secretary Napolitano has 
said that she has been meeting with other partners 
internationally about their security and how we can work 
together on this. Will you be involved in that as head of TSA, 
if confirmed, in terms of trying to reach out to these other 
airports in other countries?
    General Harding. Very good question, Senator, and I expect 
to be a fully participating member of the Secretary's team, and 
I am pretty sure the international carriers would meet in 
Canada, I believe, in September. And if confirmed, I am pretty 
sure the Secretary would send me to that.
    Senator Klobuchar. OK. In the President's budget, he 
actually upped the number of Federal Air Marshal Service 
personnel and, I think, put in $85 million for that and has 
also requested $71 million to fund an additional 275 
proprietary explosive detection canine teams. Can you elaborate 
on the plan to use these additional personnel and canine teams 
to utmost capacity and how you think that will work?
    General Harding. Only to the extent that they are part of 
the layering system that I described earlier. The canine teams 
are very important to the layers of security that we provide 
around the airports, that TSA currently provides around the 
airports, as are the air marshals. And I applaud the increase 
in support and resources for the air marshals and the canines.
    Senator Klobuchar. In his speech on January 7, the 
President explained that rather than a failure to collect or 
share intelligence, the failure on Christmas Day was a failure 
to connect and understand the intelligence that we already had. 
What steps are you going to take to make this a priority of TSA 
to better coordinate and streamline data gathering and watch 
lists and things like we have already talked about?
    General Harding. Working cooperatively, Senator, with the 
intelligence office within DHS, as well as the intelligence 
community writ large, being an active and proactive member of 
the intelligence community through the Department of Homeland 
Security's INA shop, I think will help TSA be--receive more and 
possibly better actionable intelligence.
    The last point there is, as you know, Senator, TSA just 
recently cleared about or it is moving in a direction of 
clearing about 10,000 individuals in TSA to receive this 
intelligence. It is no good if we are just getting it and 
holding onto it at the headquarters. So we are pushing it 
forward also, and I think that is part of that process.
    Senator Klobuchar. OK. Something else that we talked about, 
a particular TSA policy that impacts my State. My State has I 
consider it one of the best airports in the country, and it is 
a hub and very active airport. And there is this requirement 
that checked luggage at appropriately cleared Canadian airport 
facilities have to be rescreened before the transfer to a U.S.-
based connecting flight.
    This requirement frequently causes delayed connections for 
passengers arriving from Canada since their baggage must be 
physically transported from the arrival aircraft to a baggage 
screening facility, rescreened by TSA, and then retransported 
to the connecting flight. And I know this is all being done for 
good reasons, and obviously, it is a balance with security.
    But it is my understanding that TSA has been working with 
Canadian authorities for well over a year to reach an agreement 
that would put in place new technologies and processes for 
Canadian baggage screening that will meet U.S. security 
standards.
    And you have given me your commitment that you will work 
with me to resolve this issue. Do you have any other comments 
about that?
    General Harding. I reaffirm my commitment, Senator.
    Senator Klobuchar. OK. That is a very nice short answer, 
very smart.
    OK. Well, I just want to thank you for your work. You have 
a big job in front of you. I view this as of the utmost 
importance to our security, but I also think that there are 
things that we can do where we can actually be more efficient 
and be smarter about our resources, at the same time doing a 
better job for security. And I hope you view it that way as 
well.
    General Harding. I do.
    Senator Klobuchar. OK. Thank you.
    I know that there will be questions that will be allowed 
for the record in this hearing. Some of our colleagues couldn't 
be here today and want to submit questions, and questions for 
the record are due at 5 p.m. tomorrow.
    With that, thank you very much, General Harding, and the 
hearing is adjourned.
    [Whereupon, at 10:26 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    General Harding, I appreciate your past military service and 
willingness in serving as Administrator of the TSA.
    Like a number of my colleagues, I have been concerned with the 
Administration's long delay in filling the top position at TSA.
    With your strong credentials when it comes to your background in 
the Army and the intelligence community, I think that you would bring 
an important perspective to TSA when it comes to strengthening security 
for the traveling public.
    There's no question that we face many challenges going forward when 
it comes to addressing changing terrorist threats but I also believe 
that one of the biggest challenges TSA faces is complacency from the 
general public and a lack of understanding when it comes to screening 
protocols.
    Certainly after 9/11, there was a heightened understanding by the 
public when it came to accepting the new security measures that were 
instituted at commercial airports. I posed a similar question to Mr. 
Southers when he appeared before this committee last year, but I would 
be curious to know what you would do as head of the TSA to address 
public complacency?

                                  <all>

</pre></body></html>
